OIG Investigative Reports, Former Deputy Under Secretary for Safe and Drug Free Schools With The Department of Education Pleads Guilty
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. DEPARTMENT OF JUSTICE
FOR IMMEDIATE RELEASE
FRIDAY, APRIL 29, 2005
www.usdoj.gov
CRM
(202) 514-2008
TDD (202) 514-1888
PRESS RELEASE
FORMER DEPUTY UNDER SECRETARY FOR SAFE AND DRUG FREE SCHOOLS
WITH THE DEPARTMENT OF EDUCATION PLEADS GUILTY
Washington, D.C. - Christopher A. Wray, Assistant Attorney General for the Criminal Division of the U.S.
Department of Justice, announced today that Eric G. Andell, former Deputy Undersecretary for Safe and Drug Free
Schools with the Department of Education, pled guilty to a one count information charging him with a conflict of interest
in violation of Title 18, United States Code, Sections 208 and 216. Magistrate Judge Deborah A. Robinson of the United
States District Court for the District of Columbia set Andell's sentencing for July 29, 2005. Between November 2002
and September 2003, Andell approved official travel for himself on approximately fourteen occasions to New York, New
York; Austin and Houston, Texas, Detroit, Michigan; and Columbus Ohio. Each of these trips was motivated at least in
part by Andell's interest in private personal and financial matters, including his desire to accrue service time toward
receipt of a pension from the State of Texas. On each of these trips, Andell conducted some personal business, and
certain of his personal expenses were reimbursed by the government. Additionally, as part of these trips, Andell received
his government salary for days on which he requested, received, and was paid for sick leave, when in fact he was working
as a visiting judge in the State of Texas. As part of his plea agreement, Andell has agreed to pay $8,659.85 to reimburse
the government for his fraudulent expenses.
This matter is being handled by Trial Attorney Susan J. Park of the Public Integrity Section, of the U.S. Department
of Justice, Criminal Division with the investigative assistance of The Honorable Jack Higgins, Office of Inspector
General, U.S. Department of Education.
05-229
Top
Printable view
Share this page
Last Modified: 07/11/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov